No: 21IN THE SUPREME
COURT OF THE UNITED STATES

KHALED ELBEBLAWY,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

DECLARATION VERIFYING TIMELY FILING

Petitioner, Khaled Elbeblawy, through undersigned counsel and pursuant to
SUP. CT. R. 29.2 and 28 U.S.C. § 1746, declares that the Petition for Writ of
Certiorari filed in the above-styled matter was sent in an envelope via regular mail
for delivery within three days, addressed to the Clerk of the Supreme Court of the
United States, on the 21st day of April 2021, which is the time the petition for writ of
certiorari is due.
SONIA ESCOBIO O’DONNELL
The O’Donnell Law Firm, P.A.

Miami, Florida
April 21, 2021

By:

s/ Sonia Escobio O’Donnell
Sonia Escobio O’Donnell
Counsel of Record for Petitioner
700 S. Royal Poinciana Blvd., Ste 705
Miami Springs, Florida 33166
(305) 640-8958

